FEC -- Audit of Accounts Payable Balance as of 9/30/95:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of Accounts Payable Balance as of 9/30/95:  Executive Summary
March 28, 1997
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Office of Inspector General recently completed an audit of
accounts payable.  The purpose of the audit was to determine if
the accounts payable account balance in the amount of $466,818
was presented fairly on the official accounting records and
reports and if there were any unrecorded liabilities as of
September 30, 1995.
Our audit objectives were to ensure that:
1)	Internal controls are in place and operating
effectively;
2)	Accounts payable represent authorized obligations;
3)	Accounts payable and related budgetary accounts are
properly valued and recorded; and
4)	Accounts payable includes all significant current
obligations.
Our audit of accounts payable was conducted in accordance with
the General Accounting Office Government Auditing Standards and
included such auditing procedures as considered necessary.  Our
review addressed compliance with the applicable regulations and
policy guidance which included GAO Policy and Procedures Manual
for Guidance of Federal Agencies-Title 2, Accounting Appendices
I, II and III and the Treasury Financial Manual, Financial
Management Service Series, Standard General Ledger (SGL).
The scope of our audit addressed amounts owed for goods and
services provided by vendors and government agencies.  The FEC is
required to record a liability, usually in the form of an
accounts payable, at fiscal year end (September 30) if a supplier
has delivered goods or services on, or before September 30, but
has not been paid for the goods or services by close of business
on September 30.
Details of the sample methodology used during our audit are
discussed in the report.  We performed an internal control review
to identify the existing controls, including year-end closing
procedures, over accounts payable.  Our substantive tests were
designed to evaluate the effectiveness of these controls.  These
tests included the review of invoices, purchase orders, receiving
reports, various registers, journals and reconciliations.
With regard to the results of internal control testing, we found
that management generally has effective internal control
procedures.
The results of our substantive testing are discussed at length in
the report.  The tests included sixty account payable
confirmations with FEC vendors, detailed substantive testing of
thirty accounts payable balances and supporting documentation, a
review (search) for unrecorded liabilities and analytical reviews
of account balances and reconciliations.  The following is a
summary of the test results.
Vendor Confirmations
Of the fifty-nine (59) vendor responses out of sixty (60), fifty-
one (51) agreed with the FEC accounts payable balance as of
September 30, 1995.  Four (4) of the eight (8) vendors responded
that they could not confirm the balance because the information
was not current in their accounting systems.  There were
differences found with four (4) vendors, and based on our
research, we concluded that the differences were not significant.
Substantive (attribute) testing
Of the thirty (30) accounts payable amounts tested, we generally
found the accounting transactions well documented and processed
correctly based on our review of the supporting documentation.
The supporting documentation was contained in packets which
included the invoice, purchase order and receiving report.
Of the thirty (30) invoices tested, we found six (6) that were
for goods or services provided during August.  Based on the
review of documents, services were also provided during the month
of September under the terms of the contracts and/or purchase
orders.  Since goods/services were received from these vendors in
September, a liability should have been estimated for material
amounts.
Review for Unrecorded Liabilities
Of the thirty (30) October cash disbursements tested, seventeen
(17) disbursements were reported as an accounts payable on the
accounts payable listing as of September 30, 1995.  Thirteen (13)
disbursements were not reported as accounts payable on the
listing for various reasons.  Five (5) of the thirteen (13)
disbursements were unable to be tested, therefore a conclusion
cannot be made whether the obligations were unrecorded
liabilities as of 9/30/95.  The remaining eight (8) disbursements
were for goods, services or travel performed which were received
or completed prior to the end of the fiscal year, and therefore
an estimate of the liability should have been recorded as of
September 30.
Analytical Reviews
We reviewed the accounts payable balance reported on the Budget
Execution Report (SF-133) submitted to the Office of Management
and Budget (OMB) and the Treasury Year-end Closing Statement (FMS
2108).  Due to a mathematical error, the total liability reported
to OMB did not include accounts payable in the amount of $466,818
for goods and services as of September 30, 1995.
Determinations and Suggestions
The accounts payable balance is understated as reported in the
FEC financial reports as of September 30, 1995 because
liabilities are not estimated for goods and services received,
but not invoiced, in September.
GAO Title 2, Appendix I, A-10 states that:
"Accounts Payable are liabilities, amounts owed for goods
and services received, and amounts received but not yet
earned."
It goes on to state that "accounts payable for goods and
services shall be recorded as a liability when the goods are
received.  The liability reported in the financial statements
shall reflect both invoices received and estimated amounts for
invoices not yet received."  The U.S. Treasury Financial
Management Service Standard General Ledger (SGL) requires
accruals for accounts payable.
Our review found that the existing year-end closing procedures
did not include a procedure to estimate a liability for goods and
services received during September, but not invoiced.  The
existing procedure records a payable based on invoices on hand at
the end of the fiscal year.  The receipt of the invoice by
accounting triggers the processing of the receiving report.  The
payable is not recorded upon receipt of goods or services, but
when the receiving report is received from the division and
matched with the invoice and purchase order.
The lack of accruals at the end of the fiscal year impacts both
external reports Treasury's Year-end Closing Statement (FMS 2108)
and OMB's Budget Execution Report (SF-133) and the FEC's
Statement of Financial Position.
While we recognize that the overall amount for the account
payable balance of $466,818 is small, the understating of this
balance impacts the reliability and accuracy the Combined
Statement of Financial Position, the U.S. Treasury Year-end
Closing Statement (FMS 2108) and the Budget Execution Report
submitted to OMB.
The Undelivered Orders together with Accounts Payable and Other
Liabilities balances forwarded to Treasury on the FMS 2108
represents all unpaid obligations.  These obligations are
separately identified and reported.  The Undelivered Order
balance reflects goods and services obligated for, but not
received.  The account payable balance reflects goods and
services received but not paid.  Certain services which are
received in September are not estimated (accrued) as required and
are reported as an undelivered order.  Therefore the Undelivered
Orders account is overstated and Accounts Payable is understated.
The Combined Statement of Financial Position is inaccurate.
Since the accounts payable balance is understated, the total
liability is understated.  As a result, the total equity is
overstated.  Assets are also understated.
Suggestions
The accrual of the liability for goods and services received at
September 30 is a year-end reporting issue. While the current
system is not designed to report this liability, we suggest
including procedures to address this condition in any future
plans to update and modernize your accounting system.
For fiscal year 1997, and thereafter, we believe that the FEC's
internal and external reports would be more accurate and reliable
if this adjustment is made at year-end to estimate the accounts
payable for goods and services of a material cost.
Based on the results of our internal control testing and
substantive testing, we believe the following will strengthen
controls over accounts payable:
1.	There should be an organizational chart for the accounting
office designating key personnel responsibilities among
staff.
2.	Procedures should be strengthened to ensure that paid
invoices are stamped "PAID".
3.	Receiving reports should be completed as to number,
quantity, condition etc. in accordance with the instructions
on the receiving report.  Receiving reports for training
should be signed by the employee completing the training.